(-t;r,.
 ~SIIlV'C'Slj


                    DEPARTMENT OF HEALTH & HUMAN SERVICES
                                                                                                Office of Inspector General
                                                                                                Office of Audit Services


~"+.'.:::jE
  ~~c1Ja
                                                                                                Region VII
                                                                                                60 I East 12th Street
                                                                                                Room 0429
                                                                                                Kansas City, Missouri 64106
            JUL 1 0 2009
                Report Number: A-07-08-00271

                Mr. Carlos Gonzalez, CPA

                Executive Vice-President ofInfrastructure and Chief Financial Officer

                Cooperativa de Seguros de Vida de Puerto Rico

                400 Americo Miranda Avenue

                Rio Piedras, Puerto Rico 00927


                Dear Mr. Gonzalez:

                Enclosed is the U.S. Department of Health and Human Services (HHS), Office ofInspector
                General (OIG), final report entitled "Review of the Pension Segmentation Requirements for the
                Qualified Pension Plan at Cooperativa de Seguros de Vida de Puerto Rico, for the Period
                January 1, 1996, to January 1, 2007." We will forward a copy of this report to the HHS action
                official noted on the following page for review and any action deemed necessary.

                The HHS action official will make final determination as to actions taken on all matters reported.
                We request that you respond to this official within 30 days from the date of this letter. Your
                response should present any comments or additional information that you believe may have a
                bearing on the final determination.

                Pursuant to the Freedom ofInformation Act, 5 V.S.c. § 552, OIG reports generally are made
                available to the public to the extent that information in the report is not subject to exemptions in
                the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

                If you have any questions or comments about this report, please do not hesitate to call me at
                (816) 426-3591, or contact Jenenne Tambke, Audit Manager, at (573) 893-8338, extension 21, or
                through email at Jenenne.Tambke(cv,oig.hhs.gov. Please refer to report number A-07-08-00271
                in all correspondence.

                                                               Sincerely,


                                                       ~ ~G.f)~
                                                              Patrick 1. Cogley
                                                              Regional Inspector General
                                                               for Audit Services


                Enclosure
Page 2 – Mr. Carlos González, CPA


Direct Reply to HHS Action Official:

Ms. Deborah Taylor, Acting Director
Office of Financial Management (OFM)
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, Maryland 21244-1850
Department of Health and Human Services
 

             OFFICE OF 

        INSPECTOR GENERAL 



       REVIEW OF THE 

   PENSION SEGMENTATION 

   REQUIREMENTS FOR THE 

 QUALIFIED PENSION PLAN AT
 COOPERATIVA DE SEGUROS DE
    VIDA DE PUERTO RICO,
       FOR THE PERIOD
     JANUARY 1, 1996, TO
      JANUARY 1, 2007




                     Daniel R. Levinson
 

                      Inspector General 


                         July 2009
 

                       A-07-08-00271
 

                    Office
                    Office of Inspector
                                 nspector General
                           of http://oig.hhs.gov eneral
                                        http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY 


BACKGROUND

Cooperativa de Seguros de Vida de Puerto Rico and Medicare

Cooperativa de Seguros de Vida de Puerto Rico (COSVI) has administered Medicare Part A
operations under cost reimbursement contracts with the Centers for Medicare & Medicaid
Services (CMS) since 1970.

COSVI sponsors a defined benefit pension plan, which is a deferred compensation plan in which
an employer makes actuarially determined contributions to fund an employee’s retirement
benefit as defined by the plan’s terms.

Since its inception, Medicare has paid a portion of contractors’ contributions to their pension
plans. These contributions are allowable Medicare costs subject to the criteria set forth in the
Federal Procurement Regulations, Federal Acquisition Regulation, Cost Accounting Standards
(CAS), and Medicare contracts.

Pension Segmentation

Beginning with fiscal year 1988, CMS incorporated specific segmentation requirements into the
Medicare contracts to ensure conformance with CAS 413. The Medicare contracts define a
segment and specify the methodology for the identification and initial allocation of pension
assets to the segment. Additionally, the contracts require Medicare segment assets to be updated
for each year after the initial allocation in accordance with CAS 412 and 413.

OBJECTIVE

Our objective was to determine whether COSVI complied with Federal requirements and the
Medicare contracts’ pension segmentation requirements when:

       •   identifying the Medicare segment’s initial asset base and

       •   updating the Medicare segment’s assets from the initial asset base to January 1, 2007.

SUMMARY OF FINDINGS

COSVI did not always comply with the Medicare contract’s pension segmentation requirements
when identifying the Medicare segment’s initial asset base, and while updating Medicare
segment assets from the initial asset base to January 1, 2007. As a result, COSVI understated the
Medicare segment pension assets by $858,062. The understatement occurred primarily because
COSVI identified Medicare segment pension assets attributable only to employer funded
benefits, but did not take mandatory employee contributions into account. In our audited update,
we developed Medicare segment assets associated with the total plan benefit (including




                                                 i
mandatory employee contributions). This was necessary because the employer pension cost is
adjusted to reflect actuarial gains and losses attributable to total plan benefits, which includes
both employer funded benefits and mandatory employee contributions.

RECOMMENDATION

We recommend that COSVI increase its Medicare segment assets as of January 1, 2007, by
$858,062 and recognize $1,499,943 (which includes $772,718 of mandatory employee
contributions) as the Medicare segment assets.

AUDITEE COMMENTS

In written comments on our draft report, COSVI concurred with our finding that it understated
Medicare segment pension assets by $858,062. In addition, COSVI referred to the Medicare
segment closing pension adjustment by stating, “. . . we anticipate that since the Medicare
segment assets are understated by $858,000, the final settlement will result in a refund equivalent
to that amount.”

COSVI’s comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

We have informed COSVI that the Medicare segment closing pension adjustment will be
addressed separately in a future report.




                                                 ii
                                                  TABLE OF CONTENTS 


                                                                                                                                    Page

INTRODUCTION.......................................................................................................................1 


          BACKGROUND ..............................................................................................................1 

              Cooperativa de Seguros de Vida de Puerto Rico and Medicare ...........................1 

              Federal Requirements ...........................................................................................1 

              Pension Segmentation...........................................................................................1 


          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................1 

               Objective ...............................................................................................................1 

               Scope.....................................................................................................................2 

               Methodology .........................................................................................................2 


FINDINGS AND RECOMMENDATION................................................................................3 


          MEDICARE SEGMENT ASSET BASE (INITIAL ALLOCATION) ............................4 


          UPDATE OF MEDICARE SEGMENT ASSETS ...........................................................4 

              Federal Requirements ...........................................................................................4 

              Contributions and Transferred Prepayment Credits Overstated ...........................5 

              Mandatory Employee Contributions Understated ................................................5 

              Benefit Payments Overstated................................................................................5 

              Transfers Overstated .............................................................................................6 

              Earnings and Expenses Understated .....................................................................7 


          RECOMMENDATION ....................................................................................................7 


          AUDITEE COMMENTS..................................................................................................7 


          OFFICE OF INSPECTOR GENERAL RESPONSE .......................................................7 


APPENDIXES

          A – STATEMENT OF MARKET VALUE OF PENSION ASSETS FOR 

              COOPERATIVA DE SEGUROS DE VIDA DE PUERTO RICO FOR THE 

              PERIOD JANUARY 1, 1996, TO JANUARY 1, 2007 


          B – AUDITEE COMMENTS




                                                                    iii
           Glossary of Abbreviations and Acronyms

CAS     Cost Accounting Standards
CMS     Centers for Medicare & Medicaid Services
COSVI   Cooperativa de Seguros de Vida de Puerto Rico
FAR     Federal Acquisition Regulation
WAV     weighted average value




                               iv
                                                INTRODUCTION 


BACKGROUND

Cooperativa de Seguros de Vida de Puerto Rico and Medicare

Cooperativa de Seguros de Vida de Puerto Rico (COSVI) has administered Medicare Part A
operations under cost reimbursement contracts with the Centers for Medicare & Medicaid
Services (CMS) since 1970. 1

COSVI sponsors a defined benefit pension plan, which is a deferred compensation plan in which
an employer makes actuarially determined contributions to fund an employee’s retirement
benefit as defined by the plan’s terms.

Since its inception, Medicare has paid a portion of contractors’ contributions to their pension
plans. These contributions are allowable Medicare costs subject to the criteria set forth in the
Federal Procurement Regulations, Federal Acquisition Regulation (FAR), Cost Accounting
Standards (CAS), and Medicare contracts.

Federal Requirements

CAS 412 addresses the determination and measurement of pension cost components. It also
addresses the assignment of pension costs to appropriate accounting periods.

CAS 413 addresses the valuation of pension assets, allocation of pension costs to segments of an
organization, adjustment of pension costs for actuarial gains and losses, and assignment of gains
and losses to cost accounting periods.

Pension Segmentation

CMS incorporated CAS 412 and 413 into the Medicare contracts effective October 1, 1980.
Beginning with fiscal year 1988, CMS incorporated segmentation requirements into Medicare
contracts. The Medicare contracts define a segment and specify the methodology for the
identification and initial allocation of pension assets to the segment. The contracts require
Medicare segment assets to be updated for each year after the initial allocation in accordance
with CAS 412 and 413. In claiming costs, contractors must follow cost reimbursement
principles contained in the FAR, CAS, and the Medicare contracts.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether COSVI complied with Federal requirements and the
Medicare contracts’ pension segmentation requirements when:


1
    On February 28, 2009, the contractual relationship was terminated.


                                                         1

        •     identifying the Medicare segment’s initial asset base and

        •     updating the Medicare segment’s assets from the initial asset base to January 1, 2007.

Scope

We reviewed COSVI’s initial allocation of the Medicare segment assets and its update of the
Medicare segment’s assets from January 1, 1996, to January 1, 2007.

Achieving our objectives did not require us to review COSVI’s overall internal control structure.
However, we reviewed controls relating to the initial allocation of the Medicare segment assets,
the identification of the Medicare segment, and the update of the Medicare segment’s assets.

We performed fieldwork at COSVI’s office in Rio Piedras, Puerto Rico, during March and April
2008.

Methodology

To accomplish our objective, we did the following:

   •	       We reviewed the applicable portions of the FAR, CAS, and Medicare contracts.

   •	       We reviewed the information provided by COSVI’s actuarial consulting firms. Prior to
            our review, COSVI engaged an actuarial consulting firm to analyze and develop its
            Medicare segment pension asset accounting. This information, as well as information
            prepared by COSVI’s customary actuary, included the pension plan’s assets, liabilities,
            normal costs, contributions, benefit payments, investment earnings, and administrative
            expenses. We used this information to calculate the Medicare segment assets.

   •	       We obtained and reviewed the pension plan documents, actuarial valuation reports, and
            Department of Labor/Internal Revenue Service Form 5500s used in calculating the
            Medicare segment assets.

   •	       We interviewed COSVI staff responsible for identifying the Medicare segment to
            determine whether the segment was properly identified in accordance with the Medicare
            contracts.

   •	       We reviewed COSVI’s accounting records to verify the segment identification and
            benefit payments made to the Medicare segment.

   •	       We provided the CMS Office of the Actuary with the actuarial information necessary
            for it to calculate the Medicare segment assets as of January 1, 2007.

   •	       We reviewed the CMS actuaries’ methodology and calculations.




                                                 2

We performed this review in conjunction with our audits of COSVI’s pension costs claimed for
Medicare reimbursement (A-07-08-00272; A-07-09-00317) and unfunded pension costs
(A-07-09-00318). We used the information obtained during those audits in this review.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATION

COSVI did not always comply with the Medicare contract’s pension segmentation requirements
when identifying the Medicare segment’s initial asset base, and while updating Medicare
segment assets from the initial asset base to January 1, 2007. As a result, COSVI understated the
Medicare segment pension assets by $858,062. The understatement occurred primarily because
COSVI identified Medicare segment pension assets attributable only to employer funded
benefits, but did not take mandatory employee contributions into account. In our audited update,
we developed Medicare segment assets associated with the total plan benefit (including
mandatory employee contributions). This was necessary because the employer pension cost is
adjusted to reflect actuarial gains and losses attributable to total plan benefits, which includes
both employer funded benefits and mandatory employee contributions.

Appendix A presents details of the Medicare segment’s pension assets from January 1, 1996, to
January 1, 2007, as determined during our audit. Table 1 summarizes the audit adjustments
required to update Medicare segment pension assets in accordance with Federal requirements.

                         Table 1: Summary of Audit Adjustments
                                                   Per OIG     Per COSVI                   Difference
Medicare Segment Asset Base (Initial Allocation)    $707,293     $455,511                    $251,782

Update of Medicare Segment Assets
  Contributions and Transferred Prepayment Credits            1,484,772       1,873,988      (389,216)
  Mandatory Employee Contributions                              502,149               0       502,149
  Benefit payments                                             (552,326)     (2,100,560)    1,548,234
  Transfers                                                  (1,601,399)       (118,827)   (1,482,572)
  Earnings, net expenses                                        959,454         531,769       427,685
Understatement of Medicare segment assets                                                    $858,062




                                              3

MEDICARE SEGMENT ASSET BASE (INITIAL ALLOCATION)

The Medicare contracts provide for separate identification of the pension assets for the Medicare
segment. The identification involves the allocation of assets to the Medicare segment as of the
first pension plan year after December 31, 1985, in which the salary criterion was met. The
allocation is to use the ratio of the actuarial liabilities of the Medicare segment to the actuarial
liabilities of the total plan, as of the later of the first day of the first plan year after December 31,
1980, or the first day of the first pension plan year following the date such Medicare segment
existed. This ratio is known as the asset fraction.

In 1989, responding to CMS’s decision to incorporate the segmentation requirements into the
Medicare contracts, COSVI computed an initial Medicare segment asset base. However, COSVI
did not update that initial asset base. Prior to our review, COSVI recomputed $455,511 as the
Medicare segment asset base as of January 1, 1996. COSVI’s computation identified pension
assets attributable only to employer funded benefits, but did not take mandatory employee
contributions into account. While we accepted COSVI’s use of January 1, 1996, to recompute
the Medicare segment’s initial asset base, we computed $707,293 as the asset base associated
with the total pension plan benefit (including mandatory employee contributions). As a result,
COSVI understated the Medicare segment initial asset base by $251,782.

UPDATE OF MEDICARE SEGMENT ASSETS

Federal Requirements

The Medicare contracts identify a Medicare segment as:

        . . . any organizational component of the contractor, such as a division,
        department, or other similar subdivision, having a significant degree of
        responsibility and accountability for the Medicare contract/agreement, in which:

            1.	 The majority of the salary dollars is allocated to the Medicare
                agreement/contract; or,

            2.	 Less than a majority of the salary dollars are charged to the Medicare
                agreement/contract, and these salary dollars represent 40% or more of the
                total salary dollars charged to the Medicare agreement/contract.

The Medicare contracts also state that “. . . the pension assets allocated to each Medicare
Segment shall be adjusted in accordance with CAS 413.50(c)(7).” CAS 413.50(c)(7) requires
that the asset base be adjusted by contributions, unfunded accruals, income, benefit payments,
and expenses. For plan years beginning after March 30, 1995, the CAS requires investment
income and expenses to be allocated among segments based on the ratio of the segment’s
weighted average value (WAV) of assets to Total Company WAV of assets.

In addition, CAS 413.50(c)(8) requires an adjustment to be made for transfers (participants who
enter or leave the segment) if the transfers materially affect the segment’s ratio of pension plan



                                                  4

assets to actuarial accrued liabilities. For plan years beginning after March 30, 1995, the CAS
requires that the amount of assets transferred equal the actuarial accrued liabilities as determined
using the accrued benefit cost method.

Furthermore, CAS 412.50(a)(4) requires that contributions in excess of the pension cost assigned
to the period be recognized as prepayment credits and accumulated at the assumed valuation
interest rate until applied to future period costs. Prepayment credits that have not been applied to
fund pension costs are excluded from the value of assets used to compute pension costs.

Contributions and Transferred Prepayment Credits Overstated

COSVI overstated contributions and transferred prepayment credits for the Medicare segment by
$389,216. This overstatement occurred because COSVI’s update methodology did not equitably
assign pension contributions to the Medicare segment. Specifically, the overstatement occurred
primarily because COSVI’s Medicare segment asset base and the asset values of subsequent
years were incorrect. As a result, COSVI overstated contributions and transferred prepayment
credits for the Medicare segment by $389,216.

Mandatory Employee Contributions Understated

COSVI understated mandatory employee contributions for the Medicare segment by $502,149.
This understatement occurred because COSVI’s overall asset update methodology omitted assets
attributable to employee contributions in order to develop a Medicare segment asset value
attributable only to employer funded benefits. Accordingly, mandatory employee contributions
were incorrectly omitted from COSVI’s asset rollup.

Benefit Payments Overstated

COSVI overstated benefit payments by $1,548,234, primarily because it misidentified
participants receiving benefit payments. Specifically, COSVI incorrectly included benefit
payments for participants that we, in following COSVI’s stated methodology, considered as
participant transfers. In addition, COSVI’s calculations incorrectly considered a pro-rata share
of payments for participants with indirect Medicare allocations who were not part of the
Medicare segment. Benefit payments made during the year to Medicare segment participants
should have been identified as benefit payments to the Medicare segment, as required by CAS
413.50(c)(7). This overstatement of benefit payments resulted in an understatement of the
Medicare segment assets. Table 2 shows the variance between COSVI’s and our calculations of
Medicare segment benefit payments.




                                               5

                Table 2: Comparison of Medicare Segment Benefit Payments
               Year            Per OIG          Per COSVI         Difference
               1996                 ($5,453)               $0           ($5,453)
               1997                       0            (1,050)            1,050
               1998                 (67,325)         (176,567)          109,242
               1999                 (60,423)           (9,982)          (50,441)
               2000                  (9,224)         (461,342)          452,118
               2001                  (7,862)           (1,830)           (6,032)
               2002                       0          (204,437)          204,437
               2003                 (87,775)          (82,834)           (4,941)
               2004                 (98,670)         (525,552)          426,882
               2005                (110,346)         (547,676)          437,330
               2006                (105,248)          (89,290)          (15,958)
               Total              ($552,326)      ($2,100,560)       $1,548,234

Transfers Overstated

COSVI overstated the participant transfer adjustments in its update of Medicare segment assets
by $1,482,572. The overstatement occurred primarily because COSVI incorrectly identified the
participants who transferred in and out of the Medicare segment. Specifically, COSVI
incorrectly accounted for certain participants as receiving a benefit payment rather than
following its stated approach of transferring those participants out of the Medicare segment when
they terminated employment. This practice resulted in an overstatement of the Medicare
segment assets. Table 3 shows the variance between COSVI’s and our asset adjustments
associated with the Medicare segment participant transfers.

          Table 3: Comparison of Net Asset Transfers from the Medicare Segment
              Year             Per OIG          Per COSVI          Difference
               1996                      $0                 $0                $0
               1997                 (30,607)                 0           (30,607)
               1998                  (1,858)                 0            (1,858)
               1999                 (12,267)                 0           (12,267)
               2000                (301,940)                 0          (301,940)
               2001                  52,294                  0            52,294
               2002                 (81,083)                 0           (81,083)
               2003                (559,265)             9,058          (568,323)
               2004                (530,619)           (23,196)         (507,423)
               2005                 (20,933)           (46,990)           26,057
               2006                (115,121)           (57,699)          (57,422)
              Total             ($1,601,399)         ($118,827)      ($1,482,572)




                                              6

Earnings and Expenses Understated

COSVI understated investment earnings, less administrative expenses, by $427,685 for the
Medicare segment because it incorrectly identified the Medicare segment’s initial asset base and
because it used incorrect contribution and transferred prepayment credit amounts, mandatory
employee contribution amounts, benefit payment amounts, and transfer adjustment amounts (all
discussed above) to update the Medicare segment’s asset base. In addition, COSVI did not use
the WAV of assets to allocate earnings as required by CAS 413.50(c)(7). In our audited update,
we reallocated earnings and expenses, based on the applicable CAS requirements, and
determined that COSVI understated the Medicare segment assets by $427,685.

RECOMMENDATION

We recommend that COSVI increase its Medicare segment assets as of January 1, 2007, by
$858,062 and recognize $1,499,943 (which includes $772,718 of mandatory employee
contributions) as the Medicare segment assets.

AUDITEE COMMENTS

In written comments on our draft report, COSVI concurred with our finding that it understated
Medicare segment pension assets by $858,062. In addition, COSVI referred to the Medicare
segment closing pension adjustment by stating, “. . . we anticipate that since the Medicare
segment assets are understated by $858,000, the final settlement will result in a refund equivalent
to that amount.”

COSVI’s comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

We have informed COSVI that the Medicare segment closing pension adjustment will be
addressed separately in a future report.




                                               7

APPENDIXES 

              STATEMENT OF MARKET VALUE OF PENSION ASSETS FOR                        APPENDIX A
               COOPERATIVA DE SEGUROS DE VIDA DE PUERTO RICO                                Page 1 of 5
               FOR THE PERIOD JANUARY 1, 1996, TO JANUARY 1, 2007

          Description                 Total Company      “Other” Segment     Medicare Segment

Assets January 1, 1996           1/       $8,535,635          $7,828,342            $707,293

Transferred Prepayment Credits   2/                 0             (38,293)             38,293
 

Employer Contributions           3/           941,553             879,892              61,661
 

Employee Contributions           4/           434,484             394,614              39,870
 

Earnings                         5/           582,172             527,840              54,332
 

Benefit Payments                 6/        (1,395,754)         (1,390,301)             (5,453)
 

Expenses                         7/           (52,193)            (47,322)             (4,871)
 

Transfers                        8/                 0                   0                   0
 


Assets January 1, 1997                     9,045,897           8,154,772             891,125

Transferred Prepayment Credits                      0             (37,722)             37,722
 

Employer Contributions                      1,211,703           1,130,235              81,468
 

Employee Contributions                        470,261             428,002              42,259
 

Earnings                                      734,201             655,067              79,134
 

Benefit Payments                           (1,286,297)         (1,286,297)                  0
 

Expenses                                      (54,325)            (48,470)             (5,855)
 

Transfers                                           0              30,607             (30,607)
 


Assets January 1, 1998                    10,121,440           9,026,194            1,095,246

Transferred Prepayment Credits                      0             (52,265)             52,265
 

Employer Contributions                      1,224,000           1,157,056              66,944
 

Employee Contributions                        555,583             514,876              40,707
 

Earnings                                      779,547             691,885              87,662
 

Benefit Payments                           (1,181,588)         (1,114,263)            (67,325)
 

Expenses                                      (39,007)            (34,621)             (4,386)
 

Transfers                                           0               1,858              (1,858)
 


Assets January 1, 1999                    11,459,975          10,190,720            1,269,255

Transferred Prepayment Credits                      0             (65,533)             65,533
 

Employer Contributions                      1,182,000           1,128,055              53,945
 

Employee Contributions                        492,881             453,568              39,313
 

Earnings                                      819,526             721,903              97,623
 

Benefit Payments                           (1,867,165)         (1,806,742)            (60,423)
 

Expenses                                      (54,454)            (47,967)             (6,487)
 

Transfers                                           0              12,267             (12,267)
 


Assets January 1, 2000                   $12,032,763         $10,586,271           $1,446,492
                                                                                APPENDIX A
                                                                                      Page 2 of 5


          Description            Total Company      “Other” Segment     Medicare Segment

Assets January 1, 2000              $12,032,763         $10,586,271           $1,446,492

Transferred Prepayment Credits                 0             (77,729)             77,729
Employer Contributions                 1,308,000           1,249,462              58,538
Employee Contributions                   509,736             464,595              45,141
Earnings                                 922,334             795,369             126,965
Benefit Payments                      (2,914,001)         (2,904,777)             (9,224)
Expenses                                 (36,600)            (31,562)             (5,038)
Transfers                                      0             301,940            (301,940)

Assets January 1, 2001               11,822,232          10,383,569            1,438,663

Transferred Prepayment Credits                 0             (77,711)             77,711
Employer Contributions                 1,455,000           1,411,421              43,579
Employee Contributions                   544,949             501,245              43,704
Earnings                                 730,384             633,687              96,697
Benefit Payments                      (1,995,020)         (1,987,158)             (7,862)
Expenses                                 (56,994)            (49,448)             (7,546)
Transfers                                      0             (52,294)             52,294

Assets January 1, 2002               12,500,551          10,763,311            1,737,240

Transferred Prepayment Credits                0            (102,460)            102,460
Employer Contributions                1,500,000           1,472,807              27,193
Employee Contributions                  671,513             620,590              50,923
Earnings                                843,832             722,574             121,258
Benefit Payments                       (904,801)           (904,801)                  0
Expenses                                (39,250)            (33,610)             (5,640)
Transfers                                     0              81,083             (81,083)

Assets January 1, 2003               14,571,845          12,619,494            1,952,351

Transferred Prepayment Credits                 0            (103,449)            103,449
Employer Contributions                 1,625,000           1,611,971              13,029
Employee Contributions                   521,676             471,167              50,509
Earnings                                 750,751             646,159             104,592
Benefit Payments                      (1,705,387)         (1,617,612)            (87,775)
Expenses                                 (58,633)            (50,464)             (8,169)
Transfers                                      0             559,265            (559,265)

Assets January 1, 2004              $15,705,252         $14,136,531           $1,568,721
                                                                                                APPENDIX A
                                                                                                       Page 3 of 5


                Description                   Total Company       “Other” Segment      Medicare Segment

     Assets January 1, 2004                       $15,705,252          $14,136,531            $1,568,721

     Transferred Prepayment Credits                                       ($142,826)            $142,826
     Employer Contributions                         $1,175,000           $1,172,270               $2,730
     Employee Contributions                           $495,451             $445,337              $50,114
     Earnings                                         $795,910             $707,667              $88,243
     Benefit Payments                              ($2,318,195)         ($2,219,525)            ($98,670)
     Expenses                                         ($65,419)            ($58,166)             ($7,253)
     Transfers                                                             $530,619            ($530,619)

     Assets January 1, 2005                       $15,787,999          $14,571,907            $1,216,092

     Transferred Prepayment Credits                                       ($110,876)            $110,876
     Employer Contributions                         $1,324,221           $1,271,396              $52,825
     Employee Contributions                           $517,961             $467,687              $50,274
     Earnings                                         $825,006             $747,041              $77,965
     Benefit Payments                              ($5,291,463)         ($5,181,117)           ($110,346)
     Expenses                                         ($83,033)            ($75,186)             ($7,847)
     Transfers                                                              $20,933             ($20,933)

     Assets January 1, 2006                       $13,080,691          $11,711,785            $1,368,906

     Transferred Prepayment Credits                          0              (78,446)              78,446
     Employer Contributions                          2,300,000            2,164,450              135,550
     Employee Contributions                            529,464              480,129               49,335
     Earnings                                          866,930              769,355               97,575
     Benefit Payments                               (2,745,463)          (2,640,215)            (105,248)
     Expenses                                          (84,405)             (74,905)              (9,500)
     Transfers                                               0              115,121             (115,121)

     Assets January 1, 2007            9/         $13,947,217          $12,447,274            $1,499,943
     Per COSVI                         10/        $13,947,217          $13,305,336              $641,881
     Asset Variance                    11/                 $0             $858,062             ($858,062)

FOOTNOTES

1/	 	 As explained in the Findings section of the report, we computed the Medicare segment’s assets based
      on the total pension plan benefit. Using audited Medicare segment participants and participant data
      provided by COSVI and its actuarial consulting firm, we calculated the Medicare segment’s inital
      assets as shown on the next page.
                                                                                                  APPENDIX A
                                                                                                          Page 4 of 5


               January 1, 1996                                      Total Company       Medicare Segment
     EAN Actuarial Liability                                            $13,599,367           $1,293,320
     Pre 1982 Employee Contribution Balance                                 573,231               41,843
     Liability Basis for Asset Fraction                                 $14,172,598           $1,335,163
     Asset Fraction                                                                                 9.42%
     Valuation Assets                                                     $7,890,774
     Less: Audited Value of Accumulated Prepayment Credits                  (382,351)
     Assets to Allocate                                                   $7,508,423
     Multiplied by: Asset Fraction                         x                   9.42%
     Initial Medicare Segment Asset Base                                                         $707,293
     The amounts shown for the “Other” segment represent the difference between the Total Company and
     the Medicare segment. All pension assets are shown at market value.

2/   Prepayment credits represent funds available to satisfy future funding requirements, and are applied to
     future funding requirements before current year contributions in order to reduce interest costs to the
     Federal Government. Prepayment credits are transferred to the Medicare segment as needed to cover
     funding requirements.

3/   We obtained Total Company employer contribution amounts from the Department of Labor/Internal
     Revenue Service Form 5500s. We allocated Total Company contributions to the Medicare segment
     based on the ratio of the Medicare segment funding target divided by the Total Company funding
     target. Contributions in excess of the funding targets were treated as prepayment credits and
     accounted for in the “Other” segment until needed to fund pension costs in the future.

4/   We obtained Total Company employee contribution amounts from the Department of Labor/Internal
     Revenue Service Form 5500s. We obtained the Medicare segment amounts from annual employee
     contribution data provided by COSVI. The Medicare segment amounts were based upon the audited
     Medicare segment participants as of the beginning of the year.

5/   We obtained investment earnings from the Department of Labor/Internal Revenue Service Form
     5500s. We allocated investment earnings based on the ratio of the segment’s weighted average value
     (WAV) of assets to total company WAV of assets as required by the Cost Accounting Standards
     (CAS).

6/   We calculated the Medicare segment’s benefit payments based on actual payments to Medicare
     retirees. We obtained information on the benefit payments from documents prepared by COSVI. We
     used actual benefit payments for Medicare segment retirees.

7/   We allocated administrative expenses to the Medicare segment in proportion to investment earnings.

8/   We identified participant transfers between segments based on the participant valuation data files
     provided by COSVI. Our asset transfer adjustments were also based on information provided by
     COSVI. Where provided, we used an accrued benefit actuarial liability. Otherwise, we discounted
     known benefit payments, made in a subsequent year, using the valuation interest rate.
                                                                                                 APPENDIX A
                                                                                                        Page 5 of 5


9/	 	 Based upon the audited Medicare segment participants and employee contribution data provided by
      COSVI, the Medicare segment assets include $772,718 of assets attributable to mandatory employee
      contributions.

10/	 	We obtained the asset amounts as of January 1, 2007, from documents prepared by COSVI’s actuarial
      consulting firm.

11/	 	The asset variance represents the difference between our calculation of Medicare segment assets and
      COSVI’s calculation of the Medicare segment assets.
APPENDIX B
